                                              MINE SAFETY AND HEALTH
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              ALLEGATIONS OF UNFAIR ENFORCEMENT IN
                                              MSHA’S DISTRICT 1




                                                                       Date Issued: March 31, 2006
                                                                       Report Number: 05-06-003-06-001
U.S. Department of Labor                                 March 2006
Office of Inspector General
Office of Audit                                          ALLEGATIONS OF UNFAIR
                                                         ENFORCEMENT IN MSHA’S DISTRICT 1

BRIEFLY…                                                 WHAT OIG FOUND
Highlights of Report Number: 05-06-003-06-001, to        We found no indications or corroborating evidence
the Acting Assistant Secretary for Mine Safety and       to support allegations that enforcement in District 1
Health Administration (MSHA).                            was excessive or unjustified. Our analysis of data
                                                         for inspections performed, citations and withdrawal
WHY READ THE REPORT                                      orders issued, and citations and withdrawal orders
This report addresses allegations from anthracite        overturned did not indicate that activity in District 1
mine operators in the Mine Safety and Health             varied from levels in other districts or the national
Administration’s (MSHA) District 1. Specifically, they   trend in a manner or to an extent that suggested the
alleged that:                                            possibility of inappropriate actions.

                                                         Also, our analysis did not indicate that mine
•   Enforcement activity directed by the current
                                                         operators who were publicly critical of MSHA had
    District Manager was excessive or unjustified,
                                                         been harassed through increased enforcement
•   Mine operators who were publicly critical of         activity. MSHA data showed an unusually high level
    MSHA were harassed through increased                 of enforcement activity for only one mine operator in
    enforcement, and                                     District 1 who had been a frequent critic of MSHA
                                                         policies and practices in recent years. However,
•   Current MSHA regulations contain safety and          MSHA records showed that this activity was the
    health requirements that are not appropriate for     result of regulatory requirements triggered by an
    anthracite coal mines.                               especially hazardous condition at the mine.

The Mine Safety and Health Act of 1977 makes             Our analysis did indicate that MSHA has not
MSHA responsible for assuring compliance with            resolved a long-standing question of whether
Federal safety and health standards throughout the       existing regulations establish requirements that are
mining industry. In FY 2004, there were about 23         not relevant to anthracite mining operations. Since
operating anthracite (hard) coal mines, all located in   FY 1995, the number of Petitions for Modification
MSHA District 1 (northeastern Pennsylvania), and         filed in District 1 has consistently exceeded those in
employing about 100 miners. During the same year,        all other districts combined. Most of the petitions
there were almost 2,000 operating bituminous (soft)      filed in District 1 relate to issues unique to anthracite
coal mines in 27 states, employing more than             mining. Also MSHA’s efforts have not fully resolved
100,000 miners. The process of mining anthracite         whether its petition process is the most efficient
coal is still done largely by hand, while bituminous     means of dealing with regulatory differences
coal mining is generally highly mechanized.
                                                         WHAT OIG RECOMMENDED
WHY OIG DID THE AUDIT
                                                         We recommended that the MSHA evaluate whether
We performed an audit to determine the validity of
                                                         the petition process provides an efficient means of
the allegations by anthracite mine operators.
                                                         addressing the applicability of regulations to varying
                                                         mining techniques or whether any regulations
READ THE FULL REPORT                                     require revision for anthracite mining methods.
To view the report, including the scope,
methodology, and full agency response, go to:            MSHA responded that it will (a) review the work of
                                                         an earlier internal group charged with examining the
http://www.oig.dol.gov/public/reports/oa/2006/05-06-     impact of regulations on anthracite mine operators;
003-06-001.pdf                                           (b) review regulations in Pennsylvania related to
                                                         anthracite coal mining; and (c) continue to take
                                                         action, when appropriate, to eliminate the need for
                                                         mine operators to file petitions for regulatory relief.
                                                         Based on MSHA’s responses, we consider the
                                                         recommendation resolved.
                                                         Allegations of Unfair Enforcement in MSHA’s District 1




Table of Contents
                                                                                                                       PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

RESULTS

     We found no indicators or corroborating evidence to support.................................... 8
     allegations that enforcement activities directed by the current
     District 1 Manager were excessive or unjustified.

     We found no indicators that enforcement activities increased ................................. 12
     for mine operators as a result of their public criticism of MSHA.

     We found indicators that current MSHA regulations may......................................... 14
     contain health and safety requirements that are not appropriate
     to anthracite mine operations.

EXHIBITS...................................................................................................................... 19
A.   Inspections per Mine................................................................................................ 21
B.   Citations per Mine .................................................................................................... 23
C.   Orders per Mine....................................................................................................... 25
D.   Petitions for Modifications Submitted....................................................................... 27
E.   Petitions for Modification Approved.......................................................................... 29
F.   Most Common Petitions for Modification Granted in District 1 ................................. 31

APPENDICES ............................................................................................................... 33
A. Background............................................................................................................... 35
B. Objective, Scope, Methodology, and Criteria............................................................ 39
C. Acronyms and Abbreviations .................................................................................... 43
D. Agency Response..................................................................................................... 45




U.S. Department of Labor—Office of Inspector General                                                                           1
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                         Allegations of Unfair Enforcement in MSHA’s District 1




Executive Summary
We completed an audit in response to allegations by several underground anthracite
coal mine operators that they were treated unfairly by the current District Manager of the
Mine Safety and Health Administration’s (MSHA) District 1 Office. Specifically, they
alleged that (a) enforcement activities directed by the current District 1 Manager were
excessive and unjustified and (b) mine operators who were publicly critical of MSHA
were harassed through increased enforcement. They further alleged that (c) some
MSHA regulations should not apply to anthracite coal mining. Our audit objective was
to determine if there was evidence to indicate that these allegations were valid.

The Mine Safety and Health Act of 1977 assigns MSHA the responsibility to assure
compliance with Federal safety and health standards throughout the mining industry.
MSHA’s Office of Coal Mine Safety and Health administers 11 districts. District 1 is
located in northeastern Pennsylvania and consists solely of anthracite (hard) coal
mining operations. In September 2001, MSHA appointed a new District 1 Manager.

The mine operators provided limited evidence to support their verbal allegations. While
interviews with some MSHA inspectors supported the mine operators’ allegations,
others did not. Assertions by MSHA officials often conflicted with the mine operators’
allegations. Therefore, we conducted analytical procedures to determine if there were
indicators that District 1’s current overall enforcement activity was excessive or
unjustified. We interviewed key personnel, performed various analyses of MSHA’s
enforcement data, and reviewed relevant documents in an effort to find indicators of
unfair enforcement activity. Specifically, we compared the quantity and trends of
various enforcement activities for Fiscal Years (FY) 1995 through 2004. We analyzed
FY 2005 data separately because changes in the way MSHA coded the data for
FY 2005 prevented its direct comparison to prior years.

Results

We found no indications or corroborating evidence to support allegations that District 1’s
enforcement activity was excessive, unjustified, or used to harass mine operators who
were critical of MSHA. We believe, however, that MSHA has not fully addressed the
possibility that current regulations do not adequately reflect operating methods and
conditions unique to anthracite mining.

Specifically, for FYs 1995 through 2004:

   •   District 1 consistently performed a higher number of inspections per mine than
       most other districts did for comparably sized mines. In its highest year, District 1
       averaged about one inspection per mine per month.

U.S. Department of Labor—Office of Inspector General                                         3
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1




    •   District 1 consistently issued citations below the frequency for all districts.

    •   District 1 consistently issued withdrawal orders (closure or partial closure of a
        mine) at or below the frequency for all districts.

Further, 95 percent of the citations and withdrawal orders issued during the current
District Manager’s tenure were either not appealed or were upheld on appeal.

Also, our analysis of enforcement activity at individual mines in District 1 did not indicate
that mine operators who were publicly critical of MSHA had been harassed through
increased enforcement activity. Of the three mine operators in District 1 who have been
frequent critics of MSHA policies and practices in recent years, MSHA data showed an
unusually high level of enforcement activity for only one. However, MSHA records
demonstrated that the high activity was due to a regulatory requirement for frequent
spot inspections triggered by an especially hazardous condition.

While we did not substantiate the allegations of unfair treatment, our analysis did
indicate that MSHA has not resolved a long-standing question of whether existing
MSHA regulations establish requirements that are not relevant to anthracite mining
operations. Since FY 1995, the number of Petitions for Modification filed by mine
owners in District 1 (anthracite) has consistently exceeded those from all other districts
(bituminous) combined. Most of the petitions filed in District 1 relate to issues unique to
anthracite mining (e.g., methods of fire protection and construction of seals). For
FYs 1995 through 2004, 81 percent of the petitions filed in District 1 were approved.
Past and ongoing efforts by MSHA to consider the need for regulations specific to
anthracite mining have not fully resolved whether its Petition for Modification process is
the most efficient means of dealing with potential regulatory differences or whether
current regulations place inappropriate requirements on anthracite mine operators.

Recommendations

We recommend that the Acting Assistant Secretary for Mine Safety and Health evaluate
whether the existing Petitions for Modification process provides an efficient method of
addressing the applicability of existing regulations to varying mining techniques or
whether any existing regulations require revision in light of anthracite mining methods.

Agency Response

In a written response to a draft of this report, the Acting Assistant Secretary stated that
MSHA does not anticipate an increase in petitions in the near future since the anthracite
coal mining industry is declining. However, they agreed that there is merit in reviewing
and evaluating the work product developed by an earlier internal workgroup that
examined existing regulations and their impact on anthracite mine operators. This
initiative will include an evaluation of current anthracite coal regulations in the
Commonwealth of Pennsylvania.

4                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                         Allegations of Unfair Enforcement in MSHA’s District 1


The response further stated that MSHA currently has a regulatory review protocol that
evaluates the number of petitions for a particular standard and that this process has
formed the basis for the promulgation of new or revised regulations. As an example,
the response states that MSHA is currently considering a proposed direct final rule that
would eliminate the need to file petitions to use fire extinguishers at temporary electrical
installations in lieu of rock dust. MSHA will continue to review the issuance of petitions,
and when warranted, take the appropriate action to eliminate the need to file petitions.
MSHA’s response is included in its entirety in Appendix D.

OIG Conclusion

We agree with MSHA’s commitment to review and evaluate (a) the results produced by
the internal work group that it formed in 1995 to examine the potential impact of
regulations on anthracite mine operators and (b) the anthracite coal regulations in place
in the Commonwealth of Pennsylvania. This initiative, in conjunction with MSHA’s
commitment to continue reviewing issued petitions in an effort to eliminate the need to
file petitions for regulatory relief, is sufficient to resolve the OIG recommendation. The
recommendation will be closed when MSHA provides the OIG with evidence that these
actions have been completed.




U.S. Department of Labor—Office of Inspector General                                         5
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                               Allegations of Unfair Enforcement in MSHA’s District 1




U.S. Department of Labor                             Office of Inspector General
                                                     Washington, DC 20210




                             Assistant Inspector General’s Report


Mr. David Dye
Acting Assistant Secretary
 for Mine Safety and Health Administration


The Office of Inspector General (OIG) completed an audit in response to allegations
received from mine operators in the Mine Safety and Health Administration’s (MSHA)
District 1 that they were treated unfairly through MSHA’s enforcement program.
Specifically, the allegations were that:

    1. Enforcement activities1 directed by the current District 1 Manager were excessive
       or unjustified; and

    2. Mine operators who were publicly critical of MSHA were harassed through
       increased enforcement.

Mine operators further alleged that:

    3. MSHA regulations contain safety and health requirements that are not
       appropriate for anthracite mines.

We found no indications or corroborating evidence that District 1’s enforcement activity
was excessive, unjustified, or used to harass mine operators who were critical of MSHA.
We believe, however, that MSHA has not fully addressed the possibility that current
regulations do not adequately reflect operating methods and conditions unique to
anthracite mining.

The Mine Safety and Health Act of 1977 (Mine Act) assigns MSHA the responsibility to
assure compliance with Federal safety and health standards throughout the mining
industry, including conducting a complete inspection of every underground mine at least
four times a year. MSHA‘s Office of Coal Mine Safety and Health administers 11
districts. District 1 is located in northeastern Pennsylvania and consists solely of

1
 For purposes of this report, “enforcement activities” are defined as inspections performed and citations
or withdrawal orders issued.

U.S. Department of Labor—Office of Inspector General                                                        7
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1


anthracite (hard) coal mining operations. All other MSHA coal districts are made up of
bituminous (soft) coal mining operations. In September 2001, MSHA appointed a new
District Manager in District 1. In April 2005, mine operators in District 1 provided the
OIG with several complaints regarding MSHA’s enforcement activities in District 1. See
Appendix A for additional background information.

In examining the mine operators’ complaints, we interviewed MSHA and
Commonwealth of Pennsylvania officials, as well as 21 District 1 MSHA employees and
13 current and former mine operators. We compared the quantity and trends of various
enforcement activities for Fiscal Years (FYs) 1995 through 2004. We analyzed FY 2005
data separately because changes in the way MSHA coded the data for FY 2005
prevented its direct comparison to prior years. We also reviewed other pertinent
enforcement files and documents. See Appendix B for a detailed discussion of our
scope, methodology, and criteria.

We conducted the audit in accordance with Government Auditing Standards.


Objective 1:    Were enforcement activities directed by the current District 1
                Manager excessive or unjustified?

Results

We found no indicators or corroborating evidence to support allegations that
enforcement activities directed by the current District 1 Manager were excessive or
unjustified.

Several mine operators alleged that they were being treated unfairly by mine inspectors
under the direction of the current District Manager. Specifically, they claimed that
District 1 personnel conducted an excessive number of inspections and issued
unjustified citations and withdrawal orders. Examples of unjustified actions included
issuing citations for violations that did not exist or issuing citations that were prepared
prior to conducting an inspection. These allegations were based on the mine operators’
verbal testimony and involved past events that could not be corroborated through
current observations. Statements from some District 1 inspectors supported the mine
operators’ allegations, while statements from other District 1 inspectors did not.
District 1 officials denied any improper actions. In an effort to find indicators or other
evidence to corroborate the verbal allegations, we analyzed MSHA’s historical
enforcement data. We attempted to find quantifiable indicators that District 1’s
enforcement activities differed from the enforcement activities in other MSHA coal
districts or from national trends in a way that could suggest possible unfair treatment. If
our analysis showed that any of these indicators occurred, additional work would be
required to determine whether they were caused by inappropriate actions or were
explained by other factors and events.

To establish trends and to examine District 1 activity both before and after the
appointment of the current District Manager (September 2001), we analyzed MSHA
8                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                          Allegations of Unfair Enforcement in MSHA’s District 1


enforcement data for FYs 1995 through FY 2004. Specifically, we analyzed the quantity
of (a) inspections conducted, (b) citations issued, (c) withdrawal orders issued, and (d)
citations and withdrawal orders overturned on appeal (i.e., vacated). We also examined
MSHA procedures to determine when, if ever, it was appropriate to create a citation
without actually visiting a mine site. Because mines in District 1 were small operations,
we limited our analyses to mines with 11 or fewer employees throughout the nation.
And because the number of these small mining operations differed from district to
district, we based our analyses on the “average number” of various enforcement
activities per small mine in each district.

Inspections Conducted (Exhibit A)

MSHA inspections can range from an examination of a specific area or aspect of a mine
to an examination of an entire mine. Our analysis of inspections conducted included
events within this complete range, including all events in MSHA’s database categorized
as mandatory inspections, policy inspections, and auxiliary inspections. Mandatory
inspections are based on statutory requirements. Policy inspections result from internal
MSHA directives. Auxiliary inspections are conducted at the discretion of the District
Manager.

We found that, both before and after the arrival of the current District Manager at the
end of FY 2001, District 1 consistently performed a higher average number of
inspections per small mine each year than most other coal districts, generally ranking
first, second, or third out of 11 districts for average number of inspections per mine.
Beginning in FY 2001, before the arrival of the current Manager, District 1’s annual
average of inspections per small mine began to increase. The rate continued to
increase after the District 1 Manager came on-board. In its highest year (2003),
District 1 averaged about one inspection per month per mine. During FYs 2002 through
2004, 62 percent of the inspections in District 1 were mandatory or policy inspections;
38 percent were at the District Manager’s discretion.

Our analysis of MSHA’s data for inspections performed did not indicate that activity
levels in District 1 varied from the levels in other districts or from national trends in a
way or to an extent that would suggest the possibility of inappropriate actions by the
District Manager.

Citations Issued (Exhibit B)

Mine operators receive citations when MSHA inspectors establish a violation of a
standard, regulation, or section of the Mine Safety and Health Act of 1977. A citation is
classified as “Significant and Substantial” when the inspector has determined that based
on the facts surrounding the violation, there exists a reasonable likelihood the hazard
contributed to or would result in an injury or illness of a serious nature. Our analysis of
citations issued included all citations issued as a result of mandatory, policy, or auxiliary
inspections. We found that:


U.S. Department of Labor—Office of Inspector General                                          9
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1


      •    Both before and after the arrival of the current District Manager, District 1 had
           consistently issued fewer citations per small mine each year than the average
           for all coal districts. For FYs 1995 through 2004, District 1’s average citations
           per mine per year ranged from 2.9 to 9.3. Nationally, the annual citation
           frequency for comparably sized mines ranged from 13.4 to 24.6 during the
           same period.
      •    For FYs 1995 through 2004, District 1 ranked seventh or lower out of 11
           districts for the average number of citations issued per small mine.
      •    In its highest year (2004), District 1 issued, on average, 9.3 citations per mine
           during the year.
      •    Before the current District Manager (FYs 1995 – 2001), the number of
           citations issued per small mine in District 1 trailed the national average for all
           districts by 9.4 to 15.2 citations per mine annually.
      •    Under the current District Manager (FYs 2002 through 2004), the number of
           citations issued per small mine in District 1 trailed the national average for all
           districts by a slightly larger margin, ranging from 11.1 to 15.3 citations per
           mine annually.
      •    During FYs 2002 through 2004, 30 percent of the citations issued in District 1
           were categorized as “Significant and Substantial” compared to the national
           average of 41 percent.

Our analysis of MSHA’s data for citations issued did not indicate that activity levels in
District 1 varied from the levels in other districts or from national trends in a way or to an
extent that would suggest the possibility of inappropriate actions by the District
Manager.

Withdrawal Orders Issued (Exhibit C)

Withdrawal orders are issued to mine operators when an inspector determines that (a) a
violation presents an immediate threat of serious injury or illness or (b) a violation noted
in a prior citation has not been timely corrected. Our analysis of withdrawal orders
issued included all withdrawal orders issued as a result of mandatory, policy, or auxiliary
inspections. We found that:

      •    Both before and after the arrival of the current District Manager (except for
           FYs 1999 and 2004), District 1 had consistently issued fewer withdrawal
           orders per small mine each year than the average for all coal districts.
      •    For FYs 1995 through 2004, District 1 generally ranked third through sixth out
           of 11 districts for the average number of withdrawal orders issued per small
           mine.
      •    In its highest year (FY 2004), District 1 issued, on average, 1.7 withdrawal
           orders per mine during the year.
      •    Before the current District Manager (FYs 1995 through 2001), the number of
           withdrawal orders issued per small mine in District 1 equaled or trailed the
           national average for all districts in 6 of 7 years. In FY 1999, it exceeded the
           national average by an average of just 0.1 withdrawal orders per mine
           annually.

10                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                          Allegations of Unfair Enforcement in MSHA’s District 1


      •   Under the current District Manager (FYs 2002 through 2004), the number of
          withdrawal orders issued per small mine in District 1 slightly trailed the
          national average for all districts in two years (-0.1 withdrawal orders in
          FY 2002 and -0.2 withdrawal orders in FY 2003) and slightly exceeded the
          national average in another (+0.3 in FY 2004).

Our analysis of MSHA’s data for withdrawal orders issued did not indicate that the
activity levels in District 1 varied from the levels in other districts or from national trends
in a way or to an extent that would suggest the possibility of inappropriate actions by the
District Manager.

Overturned (Vacated) Citations and Withdrawal Orders

After MSHA issues a citation or withdrawal order, a mine operator can appeal the
citation either directly to MSHA or through the judicial system. Our analysis of citations
and withdrawal orders included those appealed through both procedures. We found
that:

      •   For FYs 2002 through 2005, on average 95 percent of citations and
          withdrawal orders issued in District 1 were either not appealed or were upheld
          on appeal.
      •   For FYs 2002 through 2005, on average more than 98 percent of citations
          and withdrawal orders issued nationally to small mines were either not
          appealed or upheld on appeal.

Our analysis of MSHA’s data for overturned citations and withdrawal orders did not
indicate that activity levels in District 1 varied from national levels in a way or to an
extent that would suggest the possibility of inappropriate actions by the District
Manager.

Pre-written Citations

Generally, citations are issued for violations of safety and health standards that an
inspector has observed. However, citations can be issued for violations that do not
require an inspector’s presence at or observation of the actual mine. For example, mine
operators are required to submit various documents (mine maps, ventilation plans, etc.)
to MSHA at prescribed times. If MSHA does not receive the required documents on
time or if the documents received are inadequate, a citation can be generated and
delivered to the mine operator. Citations can also be issued without an inspector’s
presence when laboratory results are needed to assess compliance. For example, if
laboratory testing determines that coal dust samples violate air quality standards, a
citation would be created and delivered to the mine operator. Therefore, it is possible
for an inspector to arrive onsite at a mine with a citation already written. Mine operators
did not provide us with specific evidence to support their allegation that inspectors were
inappropriately issuing “pre-written” citations before conducting an inspection.


U.S. Department of Labor—Office of Inspector General                                         11
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1


We did not find evidence that the overall enforcement activity in District 1 was unfair to
mine operators. Our comparison of enforcement activity levels in District 1’s to other
districts and national trends did not indicate variances that could suggest inappropriate
actions by the District Manager. Therefore, we did not attempt to determine the reasons
for any variances.


Objective 2:    Were mine operators who were publicly critical of MSHA harassed
                through increased enforcement?

Results

We found no indicators that enforcement activities increased for mine operators as a
result of their public criticism of MSHA.

Some mine operators in District 1 alleged that after they had been publicly critical of
MSHA, the District Manager harassed them by subjecting their mines to additional
inspections and citations.

We compiled and reviewed (a) numerous printed stories from newspapers and
magazines, (b) televised reports, and (c) copies of letters to MSHA and various
members of Congress in which District 1 mine operators were critical of the District 1
Manager and/or MSHA. We analyzed MSHA’s historical enforcement data in an effort
to find quantifiable indicators that District 1’s enforcement activities were greater for
mines whose owners were publicly critical of MSHA. Enforcement activity levels above
the District 1 norm for a mine whose owner was critical of MSHA could indicate a
possibility of harassment. Finding such indicators would require additional work to
determine whether they were caused by inappropriate actions or were explained by
other factors and events.

Specifically, we first determined which mine operators had been frequently critical of
District 1’s Manager and/or MSHA. We then ranked (from highest to lowest) individual
mines in District 1 based on total number of MSHA visits during the year, total
inspection hours for the year, and total citations and withdrawal orders issued during the
year.

We determined that the operators of three individual mines -- Primrose Slope, Chestnut
Coal, and RS&W – had been frequent public critics of the District Manager and/or
MSHA. Of these, only one – Primrose Slope – showed significantly higher levels of
enforcement activity than other mines in the district. We found that:

      •    In FY 2003, Primrose Slope received 43 total visits from MSHA personnel.
           This was the highest total of any mine in District 1 and 14 more visits than the
           second ranked mine in the district.
      •    In FY 2004, Primrose Slope received 71 total visits from MSHA personnel.
           This was the highest total of any mine in District 1 and 45 more visits than the
           second ranked mine in the district.
12                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                         Allegations of Unfair Enforcement in MSHA’s District 1


      •    In FY 2004, MSHA personnel spent 419 hours at Primrose Slope. This was
           the second highest total of any mine in District 1 - 145 hours less than the first
           ranked mine, but 236 hours more than the third ranked mine.
      •    In FY 2004, MSHA issued a total of 90 citations and withdrawal orders to
           Primrose Slope. This was the highest total of any mine in District 1 and 60
           more than the second ranked mine in the district.

As a result of the level of enforcement activities at this mine, we examined a sample of
the records related to these visits, citations, and withdrawal orders. District 1 records
show evidence that prior to February 13, 2003; an inspector determined that a
combination of conditions existed at Primrose Slope that comprised an especially
hazardous environment. These conditions were:

          accumulated water;

          a problem with recirculating air; and

          a roof collapse in the secondary escape route that left only one escape route.

The Mine Act states that spot inspections:

   . . . should be conducted, every 5, 10 or 15 working days, when:

       1) a mine liberates excessive quantities of methane or other
          explosive gases; or

       2) a methane or other explosive gas explosion occurred resulting
          in death or serious injury during the previous 5 years; or

       3) there exists some other especially hazardous condition in a
          mine. [Emphasis added].

On this basis, District 1 inspectors conducted weekly spot inspections of the Primrose
Slope Mine through November 27, 2004. Therefore, although enforcement data
indicates that Primrose Slope received high levels of enforcement activity, MSHA
records provide justification for these increased levels based on safety and health
concerns. Accordingly, we did not find evidence that mine operators were harassed
through increased enforcement activity because of their public criticisms of the District 1
Manager and/or MSHA.




U.S. Department of Labor—Office of Inspector General                                        13
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1


Objective 3:    Do MSHA regulations contain health and safety requirements that
                are not appropriate to anthracite mine operations?

Results

We found indicators that current MSHA regulations may contain health and safety
requirements that are not appropriate to anthracite mine operations.

We identified several areas where current regulations appear to be inconsistent with the
conditions or operating methods in anthracite mining. Although MSHA has a process
that allows mine operators to request relief from or modification of any existing
regulation, the process requires an investment of time and resources by both MSHA
and the mine operators. MSHA should determine whether its current process for
regulatory relief is the most efficient means of addressing operational differences
between anthracite and bituminous coal mining or whether regulations should be
revised to address these differences.

There are three major differences between anthracite and bituminous coal mining:
.
   • Anthracite coal is hard in texture and bituminous is soft;
   • Anthracite coal veins run primarily vertically down from the surface of the earth
      and bituminous coal veins run primarily horizontal to and below the surface of the
      earth; and
   • Anthracite coal mining is generally done manually and bituminous coal mining is
      generally mechanized.

District 1 mine operators alleged that current MSHA regulations are based on
bituminous coal mining conditions and methods. According to the mine operators,
conditions and methods used in anthracite coal mining are significantly different. As a
result, they believe that current regulations contain safety and health requirements that
should not apply to their mines. In fact, they claim that following current regulations, in
some instances, creates increased hazards or risk of injury. To support their position,
mine operators pointed out that the Commonwealth of Pennsylvania established
separate regulations for anthracite mining many years ago. Both current and former
anthracite coal mine operators stated that the lack of differentiation in Federal
regulations caused them financial hardship due to the cost of filing for regulatory
modifications, lost production, and penalties for noncompliance.

We interviewed Pennsylvania officials about operational and regulatory differences
between anthracite and bituminous mines. We also analyzed the requests for
regulatory relief or modification received and approved by MSHA for FYs 1995
through 2004. Finally, we reviewed past and current MSHA efforts to address this
issue.




14                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                         Allegations of Unfair Enforcement in MSHA’s District 1


Commonwealth of Pennsylvania Regulations

The Commonwealth of Pennsylvania enacted a separate law governing anthracite
mining many years ago. The most recent revisions were part of the Coal Mine Act
passed in November 1965. According to the Chief of the Pennsylvania Department of
Environmental Protection’s Anthracite and Industrial Minerals Mine Safety Division,
MSHA’s regulations are generally written for bituminous coal mining which, in his
opinion, is generally more dangerous than anthracite coal mining. Therefore, MSHA
regulations, in most cases, are more stringent than the Pennsylvania anthracite law. He
specifically identified ventilation, roof control, haulage requirements, and advance test
drilling as areas in which current MSHA regulations may not apply to anthracite mines.
This official stated that requiring anthracite mine operators to comply with the stricter
MSHA regulations or requiring them to seek modification of the requirements on a mine-
by-mine basis creates an unnecessary cost to those operators.

Petitions for Modification (Exhibits D, E, and F)

MSHA officials believe that any differences between anthracite and bituminous coal
mining that are not reflected in current regulations are addressed through their Petition
for Modification (PFM) process. As documented in law (the Mine Act, Section 101(c)),
regulation (CFR Part 44), and MSHA guidance (PH89-L-1, Petitions for Modification),
mine operators may request relief from and propose an alternative method for achieving
the same level of safety and health as an existing standard through MSHA’s PFM
process. We found that:

      •   For FYs 1995 through 2004, mine operators in District 1 consistently filed
          more PFMs (375) than mine operators in all other districts combined (121).
      •   For FYs 1995 through 2004, MSHA consistently approved more PFMs for
          District 1 mines (304) than for mines in all other districts combined (58).
      •   Most of the PFMs approved for mines in District 1 related to differences
          between anthracite and bituminous coal mining (215 PFMs related to issues
          associated with anthracite mining methods and conditions versus 89 PFMs
          filed for other reasons).

Our analysis of MSHA’s data on PFMs indicates that the activity level in District 1 has
been significantly greater than in other districts and that a majority of petitions relate to
issues that are unique to anthracite mine conditions and methods. This demonstrates a
potential need to assess the appropriateness of existing regulations as they relate to
anthracite mining.

Past and Current MSHA Efforts

MSHA has been aware of the perceived conflict between its regulations and anthracite
mining as well as the cost involved with its PFM process since at least 1995. On
November 28, 1995, MSHA published a notice in the Federal Register titled “Safety
Standard Revisions for Underground Anthracite Mines.” In the notice, MSHA

U.S. Department of Labor—Office of Inspector General                                        15
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1


acknowledged that the mining methods used and hazards encountered in underground
anthracite mines are “significantly different from underground bituminous coal mines.”
The notice stated that because of these differences, “some mine operators find it
difficult to comply with existing safety standards at their underground anthracite mines.”
Further, acknowledging that it had received 250 variance requests from underground
anthracite mine operators during the prior 2 years and that the variance process “costs
time and money,” MSHA stated its intention to issue a proposed rule to modify several
existing safety standards to address more appropriately the specific conditions of the
underground anthracite mining industry.” To accomplish this objective, MSHA formed
an internal workgroup to examine potential revisions in the existing regulations.
However, in a Federal Register notice dated December 3, 2001, MSHA stated that it
was “withdrawing this entry from the agenda in light of resource constraints and
changing safety and health regulatory priorities.” No regulatory revisions were
proposed or made.

In October 2005, as a result of a large number of PFMs filed by underground anthracite
mine operators, MSHA began considering the possibility of publishing a Notice of
Proposed Rule Making to revise one specific regulation as it relates to anthracite
mining. According to a MSHA official, no other regulatory revisions related to anthracite
mining are currently under consideration within MSHA.

The segregation of safety and health standards for underground anthracite mines within
the Commonwealth of Pennsylvania’s regulations, the large number of PFMs submitted
by and approved for underground anthracite mines, and MSHA’s prior and current
efforts related to this issue indicate that the concerns expressed by District 1 mine
operators regarding the current regulatory approach may be valid and should be
resolved.

Recommendation

We recommend that the Acting Assistant Secretary for Mine Safety and Health evaluate
whether the Petitions for Modification process provides an efficient method of
addressing the applicability of existing regulations to varying mining techniques or
whether any existing regulations require revision in light of anthracite mining methods.

Agency Response

In a written response to a draft of this report, the Acting Assistant Secretary stated that
MSHA does not anticipate an increase in petitions in the near future since the anthracite
coal mining industry is declining. However, they agreed that there is merit in reviewing
and evaluating the work product developed by an earlier internal workgroup that
examined existing regulations and their impact on anthracite mine operators. This
initiative will include an evaluation of current anthracite coal regulations in the
Commonwealth of Pennsylvania.

The response further stated that MSHA currently has a regulatory review protocol that
evaluates the number of petitions for a particular standard and that this process has

16                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                         Allegations of Unfair Enforcement in MSHA’s District 1


formed the basis for the promulgation of new or revised regulations. As an example,
the response states that MSHA is currently considering a proposed direct final rule that
would eliminate the need to file petitions to use fire extinguishers at temporary electrical
installations in lieu of rock dust. MSHA will continue to review the issuance of petitions,
and when warranted, take the appropriate action to eliminate the need to file petitions.

See Appendix D for a complete copy of the Agency response.

OIG Conclusion

We agree with MSHA’s commitment to review and evaluate (a) the results produced by
the internal work group that it formed in 1995 to examine the potential impact of
regulations on anthracite mine operators and (b) the anthracite coal regulations in place
in the Commonwealth of Pennsylvania. This initiative, in conjunction with MSHA’s
commitment to continue reviewing issued petitions in an effort to eliminate the need to
file petitions for regulatory relief, is sufficient to resolve the OIG recommendation. The
recommendation will be closed when MSHA provides the OIG with evidence that these
actions have been completed.




Elliot P. Lewis
February 6, 2006




U.S. Department of Labor—Office of Inspector General                                        17
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                         Allegations of Unfair Enforcement in MSHA’s District 1




Exhibits




U.S. Department of Labor—Office of Inspector General                                        19
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                                                                  Allegations of Unfair Enforcement in MSHA’s District 1


                                                                                  Exhibit A




                                                                          Inspections per Mine
                                                                      (Mine Size = 11 Employees or less)

                                                  District 1   National Average      District 1 (Adjusted)          National Average (Adjusted)

                                      16
                                                                                                                                                  15.2
                                                                                                                                      14.2
                                      14
                                                                                                                          12.5
                                                                                                                                      13.2
  Average # of Inspections per Mine




                                                                                                                                                  12.9
                                      12                                                                     11.1
                                                                                                10.5

                                      10                 9.7    9.5        9.5       9.5                                              9.5
                                            9.1                                                                           10.2                    8.9
                                                                                                 9.9         9.8
                                                                9.2                  9.2                                              9.3
                                      8                 8.7                8.7
                                           8.6                                                                                                    8.6


                                      6


                                      4


                                      2


                                      0
                                           1995        1996    1997       1998      1999       2000          2001         2002       2003         2004
                                                                                      Fiscal Year




This graph shows the average number of inspections performed per mine each year in
MSHA’s District 1 as compared to the average number of inspections performed per
mine each year in all coal districts for comparably sized mines. In FYs 2003 and 2004 a
significant number of all inspections in District 1 related to a single mine (see p. 13 for a
further discussion of the unusual circumstances at this mine). To avoid skewing the
district’s average, we adjusted the computation by removing all inspections related to
this mine.




U.S. Department of Labor—Office of Inspector General                                                                                                     21
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                                                           Allegations of Unfair Enforcement in MSHA’s District 1


                                                                          EXHIBIT B




                                                                    Citations per Mine
                                                               (Mine Size = 11 Employees or less)

                                                                    District 1           National Average

                                    30


                                                                                                                                  24.6
                                    25
  Average # of Citations per Mine




                                                                                                                          19.8
                                    20                                                                      18.6
                                         17.9
                                                                                                                   17.2
                                                16.5
                                                        13.8
                                    15                             13.5           13.7         13.4


                                                                                                                                 9.3
                                    10                                                                                    8.7
                                         7.2

                                                                                  4.3                               4.7
                                    5                              3.8                          3.7
                                                 3.3    2.9                                                 3.4



                                    0
                                         1995   1996   1997       1998           1999          2000         2001   2002   2003   2004
                                                                                   Fiscal Year




This graph shows the average number of citations issued per mine each year in
MSHA’s District 1 as compared to the average number of citations issued per mine
each year in all coal districts for comparably sized mines.




U.S. Department of Labor—Office of Inspector General                                                                                     23
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                                                               Allegations of Unfair Enforcement in MSHA’s District 1


                                                                              EXHIBIT C



                                                                  Orders per Mine
                                                            (Mine Size = 11 Employees or less)

                                                                 District 1          National Average

                                 1.8                                                                                         1.7

                                 1.6
                                                                                                                              1.4
                                 1.4
  Average # of Orders per Mine




                                 1.2
                                       1.1
                                              1.0                                                       1.0           1.0
                                 1.0

                                 0.8                  0.7
                                                                0.7                                                    0.8
                                                                              0.6          0.6                 0.6
                                 0.6
                                                                                            0.6
                                                                              0.5                               0.5
                                 0.4   0.3     0.3    0.3       0.3                                      0.3

                                 0.2

                                 0.0
                                       1995   1996   1997      1998           1999         2000         2001   2002   2003   2004
                                                                                Fiscal Year




This graph shows the average number of withdrawal orders issued per mine each year
in MSHA’s District 1 as compared to the average number of withdrawal orders issued
per mine each year in all coal districts for comparably sized mines.




U.S. Department of Labor—Office of Inspector General                                                                                25
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




26                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                                                                       Allegations of Unfair Enforcement in MSHA’s District 1


                                                                                       EXHIBIT D


                                                              Petitions for Modification Submitted
                                                                       (Mine Size = 11 Employees or less)


                                                                              District 1                  Districts 2-11


                                             120
 # of Petitions for Modification Submitted




                                                            104
                                             100

                                             80

                                             60    54                   54
                                                                                  49

                                             40                                                               33
                                                                             22                                                  25
                                                                                           20                                         20
                                             20                   12                                 14            13
                                                        9                              9        10        7             10                 12 13
                                                                                                                             6

                                              0
                                                   1995     1996        1997      1998     1999      2000     2001      2002     2003      2004
                                                                                            Fiscal Year


This graph shows, for each year, the number of Petitions for Modification submitted to
MSHA by mine operators in District 1 compared to the number of Petitions for
Modification submitted to MSHA by mine operators in all other coal districts combined.




U.S. Department of Labor—Office of Inspector General                                                                                          27
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                                                                        Allegations of Unfair Enforcement in MSHA’s District 1


                                                                                        EXHIBIT E


                                                                   Petitions for Modification Approved
                                                                     (Mine Size = 11 Employees or less)



                                                                               District 1                  Districts 2-11


                                           100
# of Petitions for Modification Approved




                                                          88

                                           80


                                           60
                                                 49
                                                                               43
                                           40                                                                   33
                                                                      26
                                                                                            17                                       19
                                           20                                                        12                                   13
                                                                                    8                                10     10
                                                                                                 6        5                                    7 7
                                                      4        3           2                                                     0
                                            0
                                                 1995     1996        1997     1998         1999     2000       2001        2002     2003      2004
                                                                                             Fiscal Year



 This graph shows, for each year, the number of Petitions for Modification approved by
 MSHA in District 1 compared to the number of Petitions for Modification approved by
 MSHA in all other coal districts combined.




 U.S. Department of Labor—Office of Inspector General                                                                                            29
 Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




30                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                         Allegations of Unfair Enforcement in MSHA’s District 1


                                         EXHIBIT F


      Most Common Petitions for Modification Granted in District 1
                          FYs 1995 – 2004
                            (Mine Size = 11 Employees or less)


                                                                                      Relates to
         CFR
                     Count               Explanation of CFR Section                   Anthracite
        Section
                                                                                      Mining?1
 1      75.1202        50     Mine maps shall be revised and supplemented at             No
                              intervals of not more than 6 months.
 2      75.1200        50     Mine Map requirements                                       Yes
 3      75.1100        48     Fire Protection                                             Yes
 4      75.335         44     Construction of seals                                       Yes
 5        49.2         26     Size and training of mine rescue teams                      No
 6      75.360         25     Pre-shift examination at fixed intervals                    Yes
 7      75.1400        22     Hoisting and equipment; general                             Yes

 8      75.1002        13     Installation of electric equipment and conductors;          Yes
                              permissibility.
 9      75.364         13     Weekly examinations – Hazardous Conditions                  Yes
10      75.1405        6      Automatic Couplers                                          No



Note 1: This column indicates whether the reason for the Petition for Modification is the
        result of a difference between anthracite and bituminous mining methods and
        conditions.




U.S. Department of Labor—Office of Inspector General                                        31
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




32                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                         Allegations of Unfair Enforcement in MSHA’s District 1




Appendices




U.S. Department of Labor—Office of Inspector General                                        33
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




34                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                         Allegations of Unfair Enforcement in MSHA’s District 1


                                                                               APPENDIX A
BACKGROUND

In March 2005, a mine operator and an official from a mining industry association made
allegations to the OIG regarding MSHA and its District 1 Manager. Subsequently, in
April 2005, several other mine operators in MSHA’s District 1 met with the OIG to
express their concerns. In general, the mine operators complained that they were being
treated unfairly by the current District 1 Manager. More specifically, they alleged:

    •   District 1’s enforcement activities directed by the current District 1 Manager
        were excessive and unjustified; and
    •   Mine operators who were publicly critical of MSHA were harassed through
        increased enforcement.

In addition, the mine operators complained about MSHA’s current coal mining
regulations. Specifically, they alleged that:

    •   MSHA regulations contain safety and health requirements that are not
        appropriate for anthracite mines.

Coal Mining

There are approximately 2,100 coal mines located in 27 states. Coal is used to
generate residential and commercial heating, to produce coke used in the steel industry,
and as a raw material in the chemical industry. The coal industry produces two
commodities: anthracite (hard) and bituminous (soft) coal. Anthracite mines are
relatively few in number and are small operations. During FY 2004, there were
approximately 23 operating anthracite mines. Each of these mines employed 11 or
fewer miners, or about 100 miners in total. The process of mining anthracite coal has
changed little over the past century. It is still done largely by hand using simple hand
tools and equipment.

By comparison, in FY 2004 there were almost 2,000 bituminous coal mines, employing
more than 100,000 miners. The United States is the second largest producer of
bituminous coal in the world. Bituminous coal fuels most of the coal-fired power plants
in the country. Bituminous coal mining operations are generally highly mechanized.

MSHA

The Federal Mine Safety and Health Act of 1977 (Mine Act) assigns MSHA the
responsibility for (a) developing mandatory safety and health standards; (b) assuring
compliance with these standards through periodic inspections; (c) assessing and
collecting civil penalties for violations of mine safety and health standards;
(d) expanding education and training programs for miners, operators, and agents;
(e) investigating mine accidents and complaints of hazardous conditions; (f) reviewing
and approving operators’ mining plans; and (g) approving and certifying the design of

U.S. Department of Labor—Office of Inspector General                                        35
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1


certain types of mining products. The Mine Act covers every mine, mine facility, mine
operator, and miner throughout the country.

MSHA is organized into two main program areas: Coal Mine Safety and Health and
Metal and Nonmetal Safety and Health. The Office of Coal Mine Safety and Health is
responsible for enforcing the Mine Act at all coal mines. It administers 11 districts with a
total of 45 field offices throughout coal mining regions. Each district is headed by a
District Manager who reports to the Administrator for Coal Mine Safety and Health.
District 1 is located in northeast Pennsylvania. It is comprised solely of anthracite coal
mines and is the only area in the country in which anthracite coal is mined. The current
District 1 Manager was appointed in September 2001. He had previously served as
District Manager in District 9 (Denver, Colorado).

In 2003, MSHA established the Office of Small Mines, which maintains a presence in
various Coal and Metal/Non-Metal District and Field Offices. Its mission is to assist
small mines in reducing injuries and illnesses through partnerships, compliance
assistance, education, training, and outreach.

Inspections

Section 103(a) of the Mine Act requires MSHA personnel to inspect coal mines each
year for the purpose of determining their compliance with the mandatory health and
safety standards and to assure a safe and healthy working environment for miners.
Underground coal mines must be inspected in their entirety at least four times per year.
Above ground mines must receive complete inspections twice a year.

Citations and Withdrawal Orders

During an inspection, if the inspector believes that a mine operator has committed a
violation of a mandatory health and or safety standard, a citation or withdrawal order is
issued to the mine operator. Each citation or withdrawal order must be in writing and
describe the nature of the violation, including references to the provision of the Mine
Act, standard, rule, or regulation alleged to have been violated.

Citations are classified as “Significant and Substantial” or “Not Significant and
Substantial” based on the inspector’s judgment of the likelihood “the hazard contributed
to or will result in an injury or illness of a reasonably serious nature.” A citation does not
require immediate withdrawal of workers; however, the violation must be corrected
within a reasonable and specified time frame as established by the coal mine inspector.

A withdrawal order requires the operator to remove all workers from the area affected
by the cited violation. A withdrawal order can be issued as a result of any of the
following types of conditions:

•    Identification of an imminent danger situation;
•    Citation(s) that have not been abated by the correction due date;


36                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                         Allegations of Unfair Enforcement in MSHA’s District 1


•   Unwarrantable failure to comply with mandatory safety and health standards;
•   Pattern of violation(s); or
•   Employed miner who did not receive the mandatory safety and training class.

Assessment of Civil Penalties

MSHA’s Office of Assessments (OA) manages the assessment of civil penalties for
violations of safety and health standards. The OA is responsible for notifying the mine
operator by certified mail of the civil monetary penalty assessed for any violation cited.
The operator has 30 days from receipt of the notification to: (1) pay the proposed
assessment; or (2) notify OA of the intent to contest the citation/withdrawal order issued
or proposed assessment with the Federal Mine Safety and Health Review Commission.
If the operator does not notify OA of its intent to contest the citation/withdrawal order or
the proposed assessment of penalty, it is deemed final.

The mine operator or any person adversely affected by the order of the Commission
has 30 days to file for review of the order in the United States Court of Appeals and, if
necessary, to the United States Supreme Court.




U.S. Department of Labor—Office of Inspector General                                        37
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




38                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                         Allegations of Unfair Enforcement in MSHA’s District 1


                                                                               APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA

Objective

Our audit objective was to determine if there was evidence to indicate that the following
allegations were valid:

   1. Enforcement activities directed by the current District 1 Manager were excessive
      or unjustified;

   2. Mine operators who were publicly critical of MSHA were harassed through
      increased enforcement; and

   3. MSHA regulations contain safety and health requirements that are not
      appropriate for anthracite mines.

Scope

We analyzed MSHA enforcement data for FYs 1995 through 2004. This 10-year
interval allowed us to examine trends over a period of time. It also allowed us to
examine activity in District 1 both before and after the arrival of the current District
Manager in September 2001. We analyzed FY 2005 data separately because changes
in the way MSHA coded the data for FY 2005 prevented its direct comparison to prior
years.

District 1 is comprised of underground mines, generally with 11 or fewer employees.
Therefore, to more accurately reflect the types of mines in District 1, we focused our
comparative analyses on data related to underground mines with 11 or fewer
employees in all the other districts.

Audit fieldwork began in March 2005 and concluded February 6, 2006. During this time,
we visited the MSHA National Headquarters; MSHA District 1 Headquarters in Wilkes-
Barre, PA; MSHA District 1 field office in Pottsville, PA; Pennsylvania’s Department of
Environmental Protection, and the U.S. Department of Labor Solicitor’s Office in
Philadelphia, PA.

Methodology

We conducted interviews with MSHA officials at Headquarters and in District 1, officials
with the Pennsylvania Department of Environmental Protection (DEP), and numerous
current and former District 1 mine operators as follows:

  X     Thirteen (13) current and former mine owners/operators in District 1

  X     Twenty-one (21) MSHA employees in District 1, including:

U.S. Department of Labor—Office of Inspector General                                        39
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1




               •   9 Mine Inspectors                     • 2 Investigators
               •   3 Administrative Staff                • 4 Safety and Health Specialists
               •   District Manager                      • Assistant District Manager
               •   Field Office Supervisor

     X   MSHA Headquarters officials, including

               • Acting Assistant Secretary              • Administrator, Coal Mine Safety &
                                                           Health Program
               • Deputy Administrator, Coal              • Chief, Safety Division, Coal Mine
                 Mine Safety & Health Program              Safety & Health Program
               • Director, Office of Assessments         • Manager, Office of Small Mines
               • Compliance Assistant, Small             • Attorneys in the Office of the
                 Mine Office                               Solicitor – Philadelphia

     X   Ten (10) officials from Pennsylvania’s DEP

               • Chief, PA DEP, Anthracite and           • 7 Mine Inspectors
                 Industrial Minerals Safety
                 Division
               • 1 Mine Engineer                         • 1 Information Technology
                                                          Generalist

Since the assertions made by mine operators, MSHA inspectors, and MSHA officials
during our interviews often conflicted, we attempted to corroborate the testimonial
evidence through analytical methods.

We analyzed historical enforcement data provided by MSHA in an electronic format.
Using Audit Control Language software, we summarized selected data by Fiscal Year
and district. Since the mines in District 1 are small operations, we limited our analyses
to mines with 11 or fewer employees. And because the number of small mines varied in
each district, we used the summarized data to compute averages per mine for mine
inspections performed and citations and withdrawal orders issued and vacated. We
also summarized MSHA’s data on Petitions for Modification submitted and approved by
district and Fiscal Year.

We compared activity levels among MSHA coal districts within each Fiscal Year. We
also examined the trends for enforcement activity levels from FYs 1995 through 2004
for District 1 and all coal districts combined. We also reviewed numerous media articles
related to mining enforcement activities in District 1.

We did not evaluate or test internal controls of the MSHA inspection process or perform
a complete audit of the MSHA program. We only performed the necessary fieldwork
and tested controls to address the allegations. We did not perform in-depth data



40                                           U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 05-06-003-06-001
                                         Allegations of Unfair Enforcement in MSHA’s District 1


reliability testing; however, we noted that MSHA management has implemented controls
to ensure the accuracy of the MSHA data base.

Criteria

We used the following criteria in performing this audit:

 •   Federal Mine Safety & Heath Act of 1977
 •   MSHA Title 30, Code of Federal Regulations, Parts 1 - 104
 •   MSHA Program Policy Manual
 •   MSHA Coal General Inspection Procedures
 •   MSHA Citation and Order Writing Handbook for Coal/Metal and Nonmetal Mines
 •   MSHA Coal Mine Safety and Health Safety and Health Supervisor’s Handbook
 •   Pennsylvania Laws for Anthracite Coal for Underground Mines “Act 346”

Auditing Standards

We conducted our audit in accordance with Government Auditing Standards issued by
the Comptroller General of the United States.




U.S. Department of Labor—Office of Inspector General                                        41
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




42                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                         Allegations of Unfair Enforcement in MSHA’s District 1


                                                                               APPENDIX C
ACRONYMS AND ABBREVIATIONS



CFR               Code of Federal Regulations

DEP               Commonwealth of Pennsylvania, Departmental of Environmental
                  Protection

FY                Fiscal Year

Mine Act          Federal Mine Safety and Health Act of 1977

MSHA              Mine Safety and Health Administration

OA                Office of Assessment

OIG               Office of Inspector General

PFM               Petition for Modification




U.S. Department of Labor—Office of Inspector General                                        43
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




44                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
                                         Allegations of Unfair Enforcement in MSHA’s District 1


                          APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                        45
Report Number: 05-06-003-06-001
Allegations of Unfair Enforcement in MSHA’s District 1




46                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-003-06-001
